CERTIFICATE OF WORD COUNT
NO. TBD
Bradley William Kennedy,
Petitioner(s),
v.
Stephen Morris, Warden (ASPC Eyman Complex);
Mark Brnovich, Attorney General for the State of Arizona,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the BRADLEY WILLIAM
KENNEDY PETITION FOR WRIT OF CERTIORARI contains 8518 words, including the parts of the brief
that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
March 19, 2020

SCP Tracking: Rosenquist-42104 N. Venture Drive, Ste. A122-Cover White

